   October 30, 2002




Acquisition
Material Distribution Services
Contract at the Defense Distribution
Depot Warner Robins, Georgia
(D-2003-016)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

APL                   Acceptable Performance Level
CGA                   Continuing Government Activity
COSIS                 Care of Supplies in Storage
DDC                   Defense Distribution Center New Cumberland
DDWG                  Defense Distribution Depot Warner Robins, Georgia
DLA                   Defense Logistics Agency
QA/CSP                Quality Assurance Customer Satisfaction Plan
QASP                  Quality Assurance Surveillance Plan
           Office of the Inspector General of the Department of Defense
Report No. D-2003-016                                                   October 30, 2002
  (Project No. D2001CK-0144)

                Material Distribution Services Contract at the
             Defense Distribution Depot Warner Robins, Georgia

                                 Executive Summary

Who Should Read This Report and Why? This report should be read by DoD civilian
and military personnel responsible for writing and administering contracts resulting from
public-private competitions. The report discusses the necessity for a well-written
contract that ties contractor payment to performance and provides for aggressive
enforcement of contract provisions.

Background. Senators Max Cleland and Zell Miller and Representative Saxby
Chambliss requested an audit of the distribution and warehousing contract at the Defense
Distribution Depot Warner Robins, Georgia. Because the contract was already awarded
and ongoing, the scope of the audit was limited to contract administration issues and
specific questions in the request related to a backlog of work and the contractor’s
reimbursement to the Government for the assistance of Government employees.

On February 4, 2000, the Defense Supply Center Columbus awarded a contract to EG&G
Logistics to perform material distribution services at the Defense Distribution Depot
Warner Robins, Georgia. The contract resulted from a public-private competition under
Office of Management and Budget Circular No. A-76, “Performance of Commercial
Activities.” The fixed-price contract, valued at about $44.1 million, had a 4-month
transition period beginning in May 2000 followed by a 3-year base period and a 2-year
option period. The contractor assumed responsibility for distribution services at the
Defense Distribution Depot Warner Robins, Georgia, on September 1, 2000.

Results. The material distribution services contract at the Defense Distribution Depot
Warner Robins, Georgia, was not adequately written regarding contractor performance,
and the Defense Logistics Agency did not provide adequate contractor oversight. The
contract did not allow for reduced payment to the contractor when the contractor:

       •    did not deliver 75 percent of 3,397 expedited orders within the required 1 hour
            over a 12-week period,

       •    achieved only 36 percent to 81 percent per month of acceptable performance
            levels over a 14-month period,

       •    did not submit 11 (26 percent) of 42 monthly quality assurance reports, and

       •    did not implement a revised quality assurance customer satisfaction plan until
            21 months after contract award.
In addition, the contract needed to be modified to include acceptable contractor
performance levels for care of supplies in storage, quality assurance, and customer
responsiveness. The Defense Logistics Agency also needed to: develop a specific
quality assurance surveillance plan, develop an individual training plan for personnel to
oversee the contract, provide adequate guidance to manage the plan, and effectively
manage the transition from DoD to contractor personnel. As a result, Defense Logistics
Agency customers did not receive proper support and incurred unnecessary costs. In
addition, the Defense Distribution Center New Cumberland miscalculated and did not
collect about $4,138 in reimbursement from EG&G Logistics for the use of Defense
Logistics Agency personnel to eliminate a backlog that EG&G Logistics allowed to
develop immediately after taking over the distribution function.

In positive actions, the Defense Distribution Depot Warner Robins, Georgia, completed
and implemented a specific quality assurance surveillance plan effective April 1, 2002.
Also, the Defense Distribution Center New Cumberland deducted $4,138 from the
EG&G Logistics May 2002 invoice to recover the full cost of the Defense Logistics
Agency employees that assisted in eliminating the backlog.

Management Comments and Audit Response. We received comments from the
Director, Logistics Operations, Defense Logistics Agency and the Deputy Chief of Staff,
Installations and Logistics, United States Air Force. The Director, Logistics Operations
generally concurred with our recommendations stating the Defense Logistics Agency was
assessing whether incentive and deduct provisions could be used in public-private
competition in a manner that assures fair treatment for both private and public offerors.
The Director, Logistics Operations did not agree that an additional measure of customer
service was necessary. The Deputy Chief of Staff, Installation and Logistics stated that it
is essential that Defense Logistics Agency personnel coordinate closely with their Air
Force counterparts at Robins Air Force Base to eliminate the deficiencies identified in
this report. See the Finding section of the report for the details of the management
comments and the Management Comments section for the complete text of
management comments.

We believe that incentive and deduct provisions can be used in public-private
competitions and that developing an additional measure of customer service would be
beneficial to the customer. We revised our recommendations to clarify our intent that the
Defense Logistics Agency include incentive and deduct provisions to tie contractor
performance to contractor payment. We request that the Defense Logistics Agency
provide comments on the unresolved recommendations by December 20, 2002.




                                            ii
Table of Contents

Executive Summary                           i


Background                                 1


Objectives                                 2


Finding
     Adequacy of Contract Administration   3

Appendixes
     A. Scope and Methodology              18
          Prior Coverage                   18
     B. Performance Measurement            19
     C. Summary of Issues and Results      24
     D. Report Distribution                25

Management Comments
     Department of the Air Force           27
     Defense Logistics Agency              28
Background
    The audit was performed in response to a request from Senators Max Cleland and
    Zell Miller and Representative Saxby Chambliss, who were concerned about
    contractor performance on the distribution and warehousing contract at the
    Defense Distribution Depot Warner Robins, Georgia (DDWG). The contract
    resulted from a public-private competition under Office of Management and
    Budget Circular No. A-76, “Performance of Commercial Activities,” August 4,
    1983. Because the contract was awarded and ongoing, the scope of the audit was
    limited to contract administration issues and specific questions in the request
    related to a backlog of work and the contractor’s reimbursement for the use of
    Government employees.
    Contract Award. In March 1998, the Defense Logistics Agency (DLA)
    announced that most of its distribution depots would undergo public-private
    competition under Office of Management and Budget Circular No. A-76. In
    FY 1998, three public-private competitions for distribution depots were started,
    which were considered prototype studies. DDWG was the third of 16 sites to
    complete the process and the largest of the initial 3 prototype sites. The
    remaining depots are being competed in phases over a 7-year period, ending in the
    spring of 2004. On February 4, 2000, the Defense Supply Center Columbus,
    Ohio, awarded contract SPO700-00-D-4001 (later modified to SPO710-00-D-
    4001) to EG&G Logistics (EG&G) to perform material distribution services at
    DDWG. The fixed-price contract, valued at about $44.1 million, had a 4-month
    transition period beginning in May 2000 followed by a 3-year base period and a
    2-year option period. The contractor assumed responsibility for distribution
    services at DDWG on September 1, 2000.

    DDWG Operations. DDWG is responsible for the distribution of material
    located at Warner Robins Air Logistics Center and provides worldwide support to
    customers in the U.S. Armed Forces as well as foreign military services. DDWG
    provides distribution and delivery services in support of depot-level maintenance
    for the F-15, C-5, C-130, and C-141 aircraft and Air Force operational units at
    Robins Air Force Base. Two organizations make up DDWG: the contractor,
    EG&G, which is responsible for the distribution function; and the Continuing
    Government Activity (CGA), which provides contractor surveillance and quality
    assurance over the contractor.

    CGA. The CGA consists primarily of personnel that assumed their positions
    under reduction in force procedures as part of the A-76 process. The CGA reports
    to the Defense Distribution Center New Cumberland, Pennsylvania (DDC), which
    is the contract administration office. CGA personnel are responsible for
    informing the administrative contracting officer at DDC of any potential or actual
    problems. They provide contractor oversight on a daily basis. The CGA is
    staffed by 17 DLA personnel including a commander, a deputy commander, a
    contracting officer’s representative, quality assurance evaluators, contracting
    officer’s technical representatives, and other staff.




                                        1
    Workload. Air Force workload constitutes about 90 percent of the distribution
    functions performed by DDWG. On-base issues to customers comprise about
    60 percent of the issues. The performance work statement estimated the workload
    for 1999 at about 1.3 million transactions per year. According to the Distribution
    Standard System data, from January 16 through 22, 2002, EG&G processed about
    18,000 transactions with a value of about $7.4 billion. According to the
    performance work statement, the inventory at DDWG as of September 1998 had a
    total value of $10.9 billion and consisted of 262,725 stock numbers.


Objectives
    The audit objective was to evaluate the contract administration of the
    warehousing and material distribution services contract at DDWG. We also
    determined the magnitude of the backlog of inventory when the contractor began
    operation in September 2000, and whether the contractor adequately compensated
    the Government for the use of Government employees. See Appendix A for a
    discussion of the audit scope and methodology, Appendix B for performance
    measurement, and Appendix C for a summary of issues and results.




                                        2
           Adequacy of Contract Administration
           The material distribution services contract at DDWG was not adequately
           written regarding contractor performance, and DLA did not provide
           adequate contractor oversight. The contract did not allow for reduced
           payment to the contractor when the contractor:

                  •   did not deliver 75 percent of 3,397 expedited orders within the
                      required 1 hour over a 12-week period,

                  •   achieved only 36 percent to 81 percent per month of acceptable
                      performance levels (APLs) over a 14-month period,

                  •   did not submit 11 (26 percent) of 42 monthly quality assurance
                      reports, and

                  •   did not implement a revised quality assurance customer
                      satisfaction plan until 21 months after contract award.

           In addition, the contract did not include acceptable contractor performance
           levels for care of supplies in storage, quality assurance, and customer
           responsiveness. DLA also did not develop a specific quality assurance
           surveillance plan, develop an individual training plan for personnel to
           oversee the contract, provide adequate guidance to manage the plan, and
           effectively manage the transition from DoD to contractor personnel. As a
           result, DLA customers did not receive proper support and incurred
           unnecessary costs. In addition, the Government did not collect about
           $4,138 from the contractor for the use of Government employees that
           assisted in eliminating a backlog that developed immediately after the
           contractor assumed responsibility for the distribution function.


Performance Measures
    DLA could have more effectively measured contractor performance and
    influenced contractor behavior. The contract contained contractor performance
    measures that were poor indicators of customer service and that only addressed a
    portion of contract requirements. DDC and CGA personnel monitored the
    performance measures in the contract; however, the contractor received full
    payment regardless of whether or not the contractor achieved the APLs.

    Measuring Contractor Performance. DLA personnel monitored contractor
    performance by comparing actual performance to the APLs stated in the contract.
    The contract identified multiple performance standards in the areas of receipts,
    issues, and inventory. APLs for each function were measured by the Management
    Information System, which uses transactional processing information from the
    Distribution Standard System. The APL measures were the primary means that
    DLA used for measuring contractor performance. However, the measures did not



                                        3
accurately reflect the services provided. Also, the contract did not include
measures of some important contract requirements. See Appendix B for an
explanation of performance measurement.

        Local Issues. The contract did not effectively measure material
distribution to local DDWG customers. About 60 percent of the workload at
DDWG is supporting Air Force customers at Robins Air Force Base. The Air
Force customer is concerned about the time from order to delivery and the
accuracy of the order. Yet, the APLs measured warehousing functions rather than
actual distribution. The issue APLs measured the time from when the contractor
receives an order until a contractor employee removes the requested item from its
storage location (pick time). The APL did not include delivery time. DDC
should modify the contract to include a measure for delivery times for local
orders. Additionally, the contract did not provide for expedited 1-hour delivery
for local customers with a flying mission.

        Expedited 1-Hour Deliveries. DLA personnel did not include a
requirement for expedited 1-hour local delivery in the original contract.
Subsequently, the contracting officer modified the contract to include expedited
1-hour local deliveries. The modification was ambiguous and ineffective. The
modification allowed the contractor to charge the customer an additional amount
for each expedited order, regardless of when the contractor delivered the order. In
addition, the contractor often did not deliver expedited orders within the required
1 hour.

                Expedited 1-Hour Service. DLA personnel’s omission of an
expedited 1-hour local delivery requirement could affect the Air Force’s ability to
maintain its aircraft. Several Air Force units at Robins Air Force Base have a
flying mission, which sometimes requires the delivery of repair parts as soon as
possible. Yet, the original contract only required the contractor to issue high-
priority orders within a 1-day average. The contracting officer signed contract
modification P00014 in December 2001 (effective date of April 2001) to require
the contractor to make special high-priority shipments called “Red-Hot Rushes.”
The contracting officer referred to “Red-Hot Rushes” in the contract as XYZ
shipments, which required the contractor to make delivery within 1 hour of
order receipt.

                Modification. The contracting officer prepared an ambiguous and
ineffective modification for XYZ shipments. The modification was ambiguous
because it called for 1-hour delivery, but only measured pick time, not delivery
time. The modification was ineffective because it did not tie contractor payment
to contractor performance in meeting the 1-hour performance requirement. The
modification required the contractor to use the Air Force’s Automated Material
Tracking System for XYZ transactions. The Air Force’s Automated Material
Tracking System allows the receiver to scan a pallet of items upon delivery and
provide an electronic record of when the contractor delivered an item. Despite the
ability to measure actual delivery, the modification specified 1-hour delivery
while the statement of work referred to pick time. Also, the modification allowed
the contractor to charge more for the service, yet did not specify an additional



                                     4
APL that would measure the contractor’s success rate. DDC should modify the
contract to require the measurement of actual delivery and establish an APL.

                Costs. The contract allowed the contractor to charge an additional
amount for each XYZ order, regardless of when the contractor delivered the item.
The purpose of the charge was to compensate the contractor for the additional
labor, material, and vehicles necessary to perform expedited 1-hour delivery
services. The contract required the contractor to deliver the XYZ item within
1 hour from the time that the contractor received the order. The compensation
amount increased the contract line item from $7.99 for a normal 1-day delivery to
$18.75 for the 1-hour delivery time. This increased the value of the contract by
more than $5 million. However, the contract did not require the contractor to
accomplish the delivery within 1 hour to receive payment. The contractor
received the additional payment regardless of whether it achieved the 1-hour
standard. DDC should modify the contract to tie contractor performance to
payment for XYZ transactions.

                XYZ Performance. The contractor often did not deliver XYZ
orders within 1 hour. CGA personnel informally measured contractor
performance for XYZ transactions although that was not a contract requirement.
From November 1, 2001, through January 17, 2002, CGA personnel compared
the delivery time for XYZ orders to contract modification P00014 requirements.
CGA personnel captured data for 67 days (which included weekend days). The
contractor performed or received 3,397 XYZ orders. The contractor did not meet
the 1-hour standard for about 75 percent of the 3,397 orders recorded, and the
contractor delivered about 27 percent of the orders in more than 3 hours. As a
result, the contractor charged more than $27,000 for XYZ orders that were not
delivered within 1 hour.

        Requirements Without APLs. DLA personnel also used measures to
monitor contractor performance that measured only a portion of the services
specified in the contract. The contract did not include measures for care of
supplies in storage (COSIS), quality assurance, and customer service.

                COSIS. The contract did not contain performance measures for
COSIS. COSIS is a program composed of a set of processes and procedures to
ensure that material in storage is maintained in ready for issue condition or to
prevent uneconomic deterioration of unserviceable material. COSIS activities are
performed on stored material. COSIS includes maintaining, storing, and caring
for material in storage; rotating material; replacing fallen material; and inspecting
for visible defects, leaks, and broken exterior components. The contract did not
measure the effectiveness or the timeliness of the COSIS functions. As a result,
the contractor did not have an incentive to devote resources to this area. DDC
should establish objective measures of contractor performance of COSIS
requirements and tie contractor payment to performance.

                Additional Requirements. In addition to COSIS, the contract did
not include measures of contractor performance for quality assurance and
customer service. The contract required that the contractor periodically submit
quality control reports to CGA personnel documenting the contractor’s quality
control efforts. However, the contract did not contain a measure of the


                                      5
contractor’s success at meeting quality requirements. Also, the contract did not
include a measure of the contractor’s responsiveness to customer inquiries. The
contract provided contractor performance measures for the resolution of supply
discrepancy reports and causative research. However, the contract did not
measure the contractor’s response time and the effectiveness in resolving
customer inquiries. DDC should modify the contract to include measures of the
effectiveness of the contractor’s quality control and customer service.

Influencing Behavior. DLA did not have an effective means of influencing
contractor performance. The material distribution services contract did not link
contractor performance to contractor payment. The absence of monetary
incentives limited the ability of DLA personnel to encourage better contractor
performance and adherence to contract requirements. Regardless of how the
contractor scored on the APLs, the contractor received the same payment.
Federal guidance encourages the use of incentives for performance-based
contracting.

        Criteria. Federal Acquisition Regulation 37.601, “General,” states,
“Performance-based contracting methods are intended to ensure that required
performance quality levels are achieved and that total payment is related to the
degree that services performed meet contract standards.” Further, performance-
based contracts should “. . . (c) Specify procedures for reductions of fee or for
reductions to the price of a fixed-price contract when services are not performed
or do not meet contract requirements (see 46.407); and (d) Include performance
incentives when appropriate.” Also, Federal Acquisition Regulation 37.602-4,
“Contract Type,” states, “To the maximum extent practicable, performance
incentives, either positive or negative or both, shall be incorporated into the
contract to encourage contractors to increase efficiency and maximize
performance (see Subpart 16.4).”

        Contract Incentives. DLA did not include effective contractor incentives
in the contract. The contract did not include incentives that tied contractor
performance to payment. However, DLA personnel considered exercising the
option years of the contract and the opportunity to claim good performance for
future Government contracts as incentives for the contractor. Likewise, DLA
considered disincentives such as not exercising the option years of the contract,
termination actions, and difficulty in obtaining future Government contracts.
Termination for convenience or for default was not a realistic option for DLA
because of the potential disruption to customers. The incentives and disincentives
cited by DLA personnel were not effective because they did not tie contractor
performance to payment. The DLA needed to determine how to use incentive and
deduct provisions in a public-private competition.

        Incentives for XYZ Orders. DDC also did not include penalties or
incentives in modification P00014 for XYZ deliveries. There were no penalties
or even reduced payments for the time of delivery. Therefore, the CGA had
difficulty encouraging the contractor to make timely deliveries and no way to
enforce a penalty for not meeting the stated goals of the delivery. DLA should
consider including incentives for future contracts.



                                     6
Actual Performance
    The contractor often did not meet APLs required by the contract. The CGA
    quality assurance evaluator prepared monthly status reports that cited 16 measures
    of performance. From November 2000 through December 2001, the contractor
    never met more than 13 of the 16 measures for any single month. The figure
    illustrates the frequency with which the contractor achieved APLs.


                                                        APL Achievement
                                              from November 2000 through December 2001


                              100.0
                               90.0
                               80.0
     Percentage of APLs Met




                               70.0
                               60.0
                               50.0
                               40.0
                               30.0
                               20.0
                               10.0
                                0.0
                                      Nov Dec Jan Feb Mar Apr May Jun        Jul Aug Sep Oct Nov Dec
                                                                 Month Reported


    The APLs are a large part of measuring contractor performance and are a means
    of documenting contractor performance. The APLs identified in the contract were
    not goals. Rather, the acceptable performance levels are the levels of service that
    the contractor has agreed to provide the Government for a fixed price. During the
    period November 2000 through December 2001, the contractor only achieved
    from 36 percent to 81 percent of the acceptable performance levels for any single
    month. The contractor’s failure to achieve the acceptable performance levels on a
    regular basis meant that the Government paid for services not provided by the
    contractor. However, there is little consequence for the contractor failing to
    maintain APLs. The contractor receives little benefit or suffers no penalty based
    upon performance measures. Inadequate oversight of the contractor by DLA
    personnel contributed to the contractor’s poor performance. For additional
    information on contractor performance, see Appendix B.




                                                             7
Contractor Oversight
    The DDC personnel did not provide CGA personnel with sufficient guidance to
    effectively monitor the contractor’s performance at the DDWG. DDC personnel
    did not ensure that CGA personnel revised and implemented the quality assurance
    surveillance plan (QASP) and that CGA personnel were properly trained and had
    adequate guidance. Additionally, CGA personnel did not adequately document
    contractor performance.

    QASP. As of January 2002, 23 months after contract award, DDC and CGA
    personnel had not revised the generic Quality Assurance Surveillance Plan to
    make it specific to DDWG. The QASP describes what the Government must do
    to ensure that the contractor performs in accordance with contract requirements.
    The QASP is a tool that assists in ensuring that the Government receives the
    quality of service called for under the contract and pays for only acceptable levels
    of service. Federal Acquisition Regulation 37.602-2, “Quality Assurance,” states:
               Agencies shall develop quality assurance surveillance plans when
               acquiring services (see 46.103 and 46.401(a)). These plans shall
               recognize the responsibility of the contractor (see 46.105) to carry out
               its quality control obligations and shall contain measurable inspection
               and acceptance criteria corresponding to the performance standards
               contained in the statement of work.

    An effective QASP should include a surveillance schedule and clearly state the
    surveillance methods. The contract management plan cited the need to develop a
    QASP and provided some guidance. However, DLA personnel did not modify
    the QASP for DDWG. DDC personnel had not modified the generic QASP from
    the management plan, dated June 23, 1999. CGA personnel cited the lateness of
    the contractor’s approved Quality Assurance Customer Satisfaction Plan
    (QA/CSP) as a contributing factor in the Government’s late development of a
    QASP. In May 2002, DDC personnel stated that CGA personnel had completed
    and implemented a more DDWG-specific QASP in April 2002. DDC personnel
    should enforce the requirement for developing and implementing a QASP in a
    timely manner.

    CGA Personnel Readiness at Transition. CGA personnel claimed that they did
    not receive adequate contract-related training before the contractor assumed
    responsibility. DDC personnel stated that individual development plans for CGA
    personnel were in place since May 2000. However, CGA personnel did not
    prepare individual development plans until January 2002, and CGA personnel
    stated that the only contract-related training that the contracting officer’s technical
    representatives completed was an on-line contracting officer’s representative
    course. DLA assigned personnel to the CGA as part of the Office of Management
    and Budget A-76 reduction in force process. CGA personnel came from supply
    backgrounds and did not have contractor oversight experience. According to
    DDC documentation provided in May 2002, CGA personnel attended an on-site
    quality assurance course and a monitoring contractor performance course and
    worked with a DDC assessment team shortly after the contractor assumed
    responsibility at DDWG.


                                             8
The Office of Federal Procurement Policy, “Guide to Best Practices for
Performance-Based Service Contracting,” October 1998, states:
           Quality Assurance Evaluators must be fully qualified to meet the major
           responsibilities of the position: maintaining complete accurate
           documentation, a good relationship with the contractor, and thorough
           knowledge of the contract requirements. Experience and training are
           essential for effective surveillance.

The CGA personnel are an important management control over contractor
performance. DDC personnel should develop and require that CGA personnel
have an individual training plan that includes contract and information systems
training in a timely manner.

CGA Guidance. The CGA did not have site-specific standard operating
procedures or a surveillance plan. DDC personnel stated that they helped
establish standard operating procedures for each of the CGA members. In
addition, DDC stated that from September through November 2000, the DDC
assessment team developed and provided surveillance plans to CGA personnel.
However, CGA personnel were unaware of the plan when the auditors visited in
August 2001 and January 2002. CGA did not have standard operating procedures
that identified the duties and responsibilities of all personnel involved in
contractor oversight. CGA personnel performed some inspections and interacted
with the contractor on a daily basis. However, the inspections of contractor
performance were irregular and poorly documented. DDC personnel should
develop standard operating procedures for CGAs.

CGA personnel did not adequately document their surveillance efforts. CGA
personnel monitored contractor performance primarily through monitoring
Management Information System and Distribution Standard System data. The
systems provide current information on the contractor’s performance against
issuing and receiving acceptable performance measures. A quality assurance
evaluator provides an end-of-month report to the contractor identifying the APLs
that the contractor achieved and those not achieved. The Management
Information System data showed the contractor not meeting APLs; however, the
Management Information System does not capture all contract requirements.
Aside from the end-of-month reports or summaries of the Management
Information System data, there was little evidence to show that CGA personnel
had observed and documented how well the contractor provided distribution
services for DDWG. DDC personnel should provide guidance to CGA personnel
stressing the importance of documenting contractor surveillance.

Discrepancy Reports. CGA personnel rarely and inconsistently issued
contractor discrepancy reports. The contract identifies the discrepancy report as
the official form for documenting unsatisfactory performance for resolution. The
contractor is required to provide a response and a remedy for the discrepancy
noted. The CGA issued 12 contractor discrepancy reports from September 1,
2000, through January 26, 2001. The CGA did not issue a contractor discrepancy
report again until October 19, 2001, almost 9 months later. This occurred during
a period when the contractor was rarely achieving monthly APLs. When CGA
personnel did use the discrepancy reports, they were not used to document


                                        9
    unsatisfactory performance but to document security, computer, and inventory
    issues. CGA personnel should consistently issue discrepancy reports as a means
    of documenting contractor performance.


Contractor Quality Control
    DDC personnel did not enforce the contract requirement that the contractor
    develop and implement a QA/CSP in a timely manner. The contractor did not
    prepare an updated plan in a timely manner and did not follow the requirements
    from that plan. Further, during the first 6 months of use, the plan had identified
    only one quality problem despite the contractor not meeting APLs.

    QA/CSP Requirement. The contractor did not adhere to contract requirements
    to revise and update its QA/CSP. The contract solicitation required the contractor
    to provide a QA/CSP that addressed how the contractor planned to meet
    contractor performance standards and comply with applicable regulations. The
    basic tenet of the plan was that the contractor was responsible for assuring quality.
    The solicitation required the contractor to submit a QA/CSP as part of its
    technical proposal and to continue to maintain the plan after contract award.

    The contractor did not meet contract requirements to implement an approved
    QA/CSP until 21 months after contract award. The contractor submitted a quality
    assurance plan as part of its technical proposal in August 1999. However, that
    submission was broad and not specific. The contractor took over responsibility
    for operations at DDWG in September 2000 but did not submit a revised draft
    QA/CSP until June 2001. The contracting officer accepted that QA/CSP by
    contract modification in November 2001, 21 months after contract award.

    QA/CSP Implementation. The contractor had not fully implemented its quality
    plan as of December 2001. The contractor did not begin submitting quality
    assurance reports to the Government until June 2001. At that point, the DDC had
    not yet approved the contractor’s QA/CSP. The QA/CSP called for the contractor
    to provide the Government with 10 different reports that documented the
    contractor’s quality assurance efforts. As of January 2002, the contractor had not
    submitted all of the required quality review forms to CGA personnel. From
    June 2001 through December 2001, the contractor did not provide 11 (26 percent)
    of 42 of the quality assurance samples required on a monthly basis. The
    contractor had failed only one of its quality assurance samples. However, from
    June 2001 through January 2002, the contractor still had trouble meeting APLs.
    For future contracts, DLA personnel should enforce the requirement for
    contractors to develop and implement a QA/CSP in a timely manner.




                                         10
Transition
    EG&G and DLA did not execute a smooth transition at DDWG. Difficulties
    during transition contributed to a backlog of work that developed shortly after the
    contractor assumed responsibility for distribution services. DLA assisted the
    contractor in eliminating the backlog but did not collect the correct amount of
    reimbursement from the contractor.

    Transition Issues. During the transition, May through August 2000, a backlog of
    work quickly developed, and service to the Air Force customer deteriorated. This
    occurred because of the following.
           •   The contractor assumed responsibility on September 1, 2000. This
               was poor timing because the Air Force was processing many assets
               near the end of the fiscal year.

           •   The contractor proposed, and DLA agreed to, a 120-day transition
               period rather than the 180 days allowed in the contract.

           •   The contractor did not hire the number and quality of personnel
               planned. Contractor personnel were not familiar with the Distribution
               Standard System because the contractor had declined the required
               training on that system.

           •   The contractor took over on Labor Day weekend and did not work a
               full staff that weekend. The contractor conducted orientation and
               training for 2 more days. The contractor did not begin full operations
               until at least 5 days after September 1, 2000. As a result, a backlog of
               work developed.

    The Government did not delay transition to the contractor despite the contractor’s
    and the Government’s failure to comply with the transition milestones.
    Contractor employees were not cross-trained, as promised in the proposal.
    Contractor personnel did not have adequate Distribution Standard System skills.
    For future contracts, the Government should not turn over the operation until the
    contractor has completed the items called for in the transition plan.

    Backlog. Because EG&G and DLA did not execute an adequate transition, a
    backlog of work developed within weeks of contract turnover in September 2000.
    The backlog grew to about 14,000 items by October 4, 2000. The backlog
    included what DLA personnel claim is a normal day’s work-in-process of about
    4,000 items. The contractor claimed that they inherited a backlog of 20,000 items
    on September 1, 2000. DDC and CGA personnel claimed work-in-process was
    about 4,000 items on September 1, 2000. Anecdotal evidence supported
    something in-between. We were unable to determine the actual magnitude of the
    backlog. To restore customer service to pre-transition levels, DLA requested that
    employees from other DLA sites come to DDWG and assist the contractor in




                                        11
    clearing the backlog. The contractor agreed to reimburse the Government for
    costs associated with the use of the DLA employees. See Appendix C for a
    summary of issues and results.

    DLA Actions Taken. DLA has taken actions to prevent disagreements about the
    conditions at turnover for subsequent A-76 actions. DLA is now documenting
    work-in-process at turnover to the contractor. In addition, the contractor will now
    sign off during the final walk-through on the condition and level of work-in-
    process. Photographs are being used to document the state of facilities and
    inventory.

    Reimbursement for Government Employees. DDC did not collect the correct
    amount of reimbursement from the contractor for DLA employees used to
    eliminate the backlog.

            Assistance. DDC requested volunteers from DLA depots to assist the
    contractor in eliminating the backlog at DDWG in October 2000. The
    administrative contracting officer modified the contract to provide for the use of
    temporary duty DLA employees. This modification, P00006, also required the
    contractor to reimburse the Government for the labor, fringe benefits, and travel
    costs associated with the temporary duty employees. Thirty-five DLA employees
    assisted the contractor in eliminating the backlog from September 24 through
    October 13, 2000. According to the Distribution Standard System, the backlog
    was as high as 9,945 items on October 4, 2000, and when the last DLA employee
    departed, the backlog was down to less than 5,000 items or just over a single
    day’s work-in-process. A normal day’s work-in-process is about 4,000 items.

            Reimbursement Calculation. DDC miscalculated the amount owed by
    the contractor by about $4,138. The miscalculation involved the labor hours for
    the DLA temporary duty employees due to incomplete records received from the
    Norfolk depot and miscalculations of other labor records. At the conclusion of
    the effort, DDC personnel calculated a reimbursement of $138,704.38 and
    withheld the amount from the EG&G November 2000 invoice. The calculation
    included travel, labor, and fringe benefits for the 35 employees. However, the
    Norfolk, Virginia, location did not forward its employees’ complete labor records
    to DDC, resulting in a $2,589 miscalculation. Also, DDC improperly reviewed
    other labor records, resulting in a $1,549 miscalculation. As a result, the
    Government did not collect about $4,138 from the contractor. See Appendix C
    for a summary of issues and results.

    DLA Corrective Actions Taken. After we provided the detailed information,
    DDC deducted $4,138.28 from the EG&G May 2002 invoice for use of the
    Government employees that assisted in eliminating the backlog.


Air Force Concerns
    Throughout the audit, Air Force personnel expressed their concern with several
    areas of contractor performance. Air Force personnel believed that the contract


                                        12
    did not effectively meet customer requirements such as local delivery and 1-hour
    expedited deliveries. Air Force personnel also expressed concern about
    maintenance item transactions. Air Force personnel stated that they did not
    believe that DLA provided sufficient oversight of the contractor.


Lessons Learned
    DLA officials involved in the A-76 effort for the DLA distribution depots met on
    four occasions to discuss lessons learned from the first wave of A-76 actions. The
    attendees identified problem areas that arose during the earlier A-76 actions.
    They also identified suggestions for improving the process and avoiding similar
    problems in future A-76 actions. Areas discussed at the meeting included quality
    control, training, and penalties and incentives.

    Quality Control. The requirement for quality control should be stated more
    clearly, and quality control should be included as an APL.

    Training. The CGA needs to be formed early in the transition period to give
    people time to familiarize themselves with their new responsibilities. Also, the
    CGA needs to be allowed to tailor itself to its specific operations. The CGA
    needs more training and cross-training on contract issues to allow greater
    flexibility within the organization.

    Penalties and Incentives. Penalties and incentives need to be incorporated into
    these contracts, and the approach to these items needs to be rethought. Deducts
    need to be built into the contract and be tied directly to the APLs.


Conclusion
    DLA did not effectively manage the material distribution services contract for
    DDWG. The contract did not effectively measure contractor performance, tie
    contractor payment to performance, and properly consider local customer
    requirements. DLA did not oversee a smooth transition from a Government-
    operated facility to a contractor-operated facility. Also, DLA did not establish an
    effective contractor oversight group. DDC did not provide standard operating
    procedures for CGA personnel, did not require the contractor to implement a
    QA/CSP, and did not require the Government to implement a site-specific QASP.
    DLA should consider these issues if the current contract is resolicited for DDWG
    and for future A-76 efforts. For other A-76 efforts, DLA personnel should:

           •   evaluate the use of incentives and disincentives and link contractor
               performance to contractor payment,

           •   consider the requirements of local customers more closely when
               developing the performance work statement,




                                        13
           •   require the CGA to develop and implement a specific QASP in a
               timely manner,

           •   require that CGA personnel receive adequate contract training,

           •   develop standard operating procedures for the CGA,

           •   enforce the requirement for contractors to develop and implement a
               QA/CSP in a timely manner, and

           •   turn over the operation only after the contractor has adequately
               completed the items called for in the transition plan.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. We revised Recommendations 1. and 2. to clarify
    our intent that the Defense Logistics Agency include incentive and deduct
    provisions to tie contractor performance to contractor payment.

    We recommend that the Commander, Defense Distribution Center New
    Cumberland require the administrative contracting officer to:

           1. Modify contract SPO710-00-D-4001 to capture actual delivery
    time for all local deliveries including XYZ deliveries and include the
    requirement when the contract is resolicited.

    Defense Logistics Agency Comments. The Director, Logistics Operations,
    Defense Logistics Agency concurred, stating that DDC is working with the Air
    Force on the solicitation for the re-competition at DDWG and that DLA will
    capture delivery times, to the extent possible, and include the requirement in the
    new contract. The solicitation is scheduled to be released by mid-
    November 2002. However, the Director also stated that the Air Force’s
    Automated Material Tracking System delivery times are unreliable. The system
    does not accurately measure deliveries made after closing, undeliverable
    packages, or expedited deliveries made without notice.

    Audit Response. The Director’s comments are partially responsive. We believe
    that the Air Force’s Automated Material Tracking System is sufficiently reliable
    to use as a starting point. We agree that DDC should continue to work with the
    Air Force to develop a system that can better capture delivery data. However,
    since the contractor began operations in September 2000, the measurement of
    actual delivery, not warehousing time has been an issue. Measuring actual
    delivery time is important for the current contract and future contracts at Robins
    Air Force Base, as well as future A-76 competitions at Hill Air Force Base and
    Tinker Air Force Base. Commercial delivery activities such as United Parcel




                                        14
Service and Federal Express measure actual delivery time and are able to address
nonresponsive recipients. We request that the DLA provide comments to the
revised recommendation.

       2. Modify contract SPO710-00-D-4001 to tie contractor performance
(achievement of acceptable performance levels ) to payment to include
incentives and deduct provisions and include the requirement when the
contract is resolicited.

Defense Logistics Agency Comments. The Director, Logistics Operations
concurred, stating that DDC is examining ways to tie payment to performance
through a deduct provision. The Director also stated that DLA is assessing
whether incentive and deduct provisions could be used in public-private
competition in a manner that assures fair treatment for both private and
public offerors.

Audit Response. The Director’s comments are partially responsive. We believe
that incentive and deduct provisions should be included in the contract. The
acceptable performance levels identified in the contract are the levels of service
that the contractor has agreed to provide the Government for a fixed price.
During the period November 2000 through December 2001, the contractor only
achieved from 36 percent to 81 percent of the acceptable performance levels for
any single month. The contractor’s failure to achieve the acceptable performance
levels on a regular basis meant that the Government paid for services not provided
by the contractor. Federal Acquisition Regulation 37.602-4, “Contract Type,”
states, “To the maximum extent practicable, performance incentives, either
positive or negative or both, shall be incorporated into the contract to encourage
contractors to increase efficiency and maximize performance (see Subpart 16.4).”
A deduct provision would seem appropriate.

The Comptroller General has upheld that incentives and deducts are allowable in
public-private competitions. In Crown Management Services, Inc., B-233365,
B-233365.3, September 20, 1989, the contractor argued that the imposition of
deductions is unfair to contractors when one must allow for the risks of
substandard performance and resulting deductions from payment in their cost
estimates. The decision stated “. . . there is no requirement that an A-76 cost
comparison include a factor to equalize the competitive position of the
government and commercial offerors with regard to potential deductions that may
be made from a contractor’s payments for defective performance.” Also, in Bay
Tankers, Inc., B-227965, B-227965.3, November 23, 1987, the decision stated,
           Although the Government and commercial offerors must compete on
           the basis of the same PWS [performance work statement], they may be
           subject to different legal obligations regarding performance that causes
           the commercial concern to suffer a cost disadvantage where the
           contractor is subject to payment deductions for defective performance
           while the Government is not. There is no requirement that the cost
           comparison include a factor to equalize such inherent disparities.
            . . . including a price factor in a cost proposal to offset potential
           payment deductions in the event of defective performance is something
           a commercial offeror elects to do at its own risk as a matter of business



                                         15
           judgment. There is no requirement under A-76 cost comparison
           procedures that an agency add a similar factor to the in-house estimate.

Additionally, the A-76 Supplemental Handbook and the Office of Federal
Procurement Policy refer to incentives and deductions in determining contract
costs. We request that DLA provide comments to the revised recommendation
that include the status on its assessment of the use of incentives and deduct
provisions.

       3. Modify contract SPO710-00-D-4001 to establish objective
measures of contractor performance for care of supplies in storage
requirements, quality control, and customer service and include the
requirement when the contract is resolicited.

Defense Logistics Agency Comments. The Director, Logistics Operations
concurred, stating DDC is working with the Air Force on the solicitation for the
re-competition at DDWG. He stated that DLA will include objective measures of
contractor performance for care of supplies in storage requirements and quality
control; however, DDC believes the Supply Discrepancy Report acceptable
performance level is the main indicator of customer service.

Audit Response. The Director’s comments are partially responsive. The
acceptable performance level for Supply Discrepancy Reports is a good measure
of customer service, but Supply Discrepancy Reports do not measure the
effectiveness and efficiency of contractor interaction with the customer in areas
such as customer response time and proper resolution of customer inquiries. We
request that DLA provide additional comments on the state of its action plan to
develop additional measures of contractor performance for customer service.

       4. Enforce the requirement for developing and implementing a
quality assurance surveillance plan in a timely manner for future contracts.

Defense Logistics Agency Comments. The Director, Logistics Operations
concurred, stating that the task will be completed for the re-solicitation of the
DDWG contract and for all subsequent contracts not later than 30 days before the
end of the transition period.

       5. Require that Continuing Government Activity personnel at the
Defense Distribution Depot Warner Robins, Georgia, develop and implement
an individual training plan that includes contract and information system
training in a timely manner.

Defense Logistics Agency Comments. The Director, Logistics Operations
concurred, stating that DDWG personnel now have individual development plans
in place. In future transitions, individual development plans will be in place
before transition.




                                        16
      6. Develop standard operating procedures for Continuing
Government Activity personnel at the Defense Distribution Depot Warner
Robins, Georgia.

Defense Logistics Agency Comments. The Director, Logistics Operations
concurred, stating that DDC is developing a comprehensive concept of operations
and a CGA Handbook, which is scheduled for completion in January 2003, and
will be in time for the next transition period.

        7. Provide guidance to Continuing Government Activity personnel
that stresses the importance of documenting contractor surveillance,
including the use of contractor discrepancy reports.

Defense Logistics Agency Comments. The Director, Logistics Operations
concurred, stating that CGA training will be completed before transition to
contract. A CGA Handbook is scheduled for completion in January 2003, and
will be in time for the next transition period.

       8. Enforce the requirement for contractors to develop and implement
a quality assurance customer satisfaction plan for future contracts in a
timely manner.

Defense Logistics Agency Comments. The Director, Logistics Operations
concurred, stating that the DDWG re-solicitation and future solicitations will
include a requirement for a locally tailored QA/CSP 60 days before the end of the
transition.

      9. Turn over the operation only after the contractor has adequately
completed the items called for in the transition plan for future contracts.

Defense Logistics Agency Comments. The Director, Logistics Operations
concurred, stating that language that provides the contracting officer the ability to
delay transition if the contractor fails to meet transition milestones has already
been developed for the performance work statement and will be enforced as
necessary during all subsequent transitions and for the DDWG re-solicitation.

Air Force Comments. The Deputy Chief of Staff, Installation and Logistics,
Headquarters United States Air Force concurred with the finding and
recommendations stating it is essential that DLA personnel coordinate closely
with their Air Force counterparts at Robins Air Force Base to eliminate the
deficiencies identified in this report.




                                     17
Appendix A. Scope and Methodology
    We reviewed the administration of the Defense Supply Center Columbus, Ohio,
    contract SPO700-00-D-4001 (later modified to SPO710-00-D-4001) awarded to
    EG&G to perform material distribution services at DDWG. The contract, valued
    at about $44.1 million, had a 4-month transition period beginning in May 2000,
    followed by a 3-year base period and a 2-year option period. Because the Office
    of Management and Budget A-76 public-private competition process was
    completed and the contract was already awarded, we reviewed only contract
    administration and specific questions related to a backlog of work and the
    contractor’s reimbursement for the use of Government employees.

    We reviewed the contract and other related documentation dated from April 1999
    through May 2002. The documentation included contract modifications, monthly
    status reports, correspondence, invoices contractor discrepancy reports, and
    training records. We also reviewed payroll and travel records for the 35 DLA
    employees from 6 DLA facilities that assisted the contractor in eliminating the
    backlog from September 24 through October 13, 2000. We interviewed DLA
    personnel at the Defense Supply Center Columbus, Ohio; DDC; and DDWG. We
    also interviewed Air Force personnel from Robins Air Force Base and tenant
    units, as well as EG&G personnel at DDWG.

    We performed this audit from July 2001 through June 2002 in accordance with
    generally accepted government auditing standards. The scope of the audit did not
    review the DLA self-evaluation of the management control program because the
    reviewed area was a single contract identified by the congressional request.

    Use of Computer-Processed Data. We relied on data from the Distribution
    Standard System and the Management Information System. Although we did not
    perform a reliability assessment of the computer-processed data, we determined
    that the contractor performance information reported was supported by other audit
    documentation.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Contract Management high-risk area.


Prior Coverage
    There were no prior audit reports related to this specific issue.




                                          18
Appendix B. Performance Measurement
   Acceptable Performance Levels. DLA personnel measured contractor
   performance primarily through monitoring information from the Distribution
   Standard System and the Management Information System. The contract
   identified 25 different performance standards for receipts, issues, and inventory.
   The CGA personnel reported 15 of these 25 APLs on the end-of-month reports
   identified in Tables 1, 2, 3, and 4. The contractor and CGA focused on
   11 primary APLs. These are listed in Tables 1, 2, and 3. The CGA focused on
   four main APLs that measure receipt functions (Table 1), four main indicators for
   issue functions (Table 2), and three main measures of inventory functions
   (Table 3). The Management Information System compiled the APL information
   daily. The CGA personnel then averaged and reported the APLs on a monthly
   basis. The measures reported in the end-of-month report were the primary means
   of tracking contractor performance.

           Receipt APLs. The CGA used four APLs with five measures to monitor
   contractor performance in the area of receipts. See Table 1 for the type of
   activity, standard, APL, and measure for receipts APLs.

                                 Table 1. Receipt APLs
          Activity                      Standard               APL          Measure
                                                             (average)

      New procurement        Tailgate/turn-in to stow and     < 1 day    New procure-
      and retail returns     post to accountable record in               ment and retail
                             less than 1 day on average                  return lines
                                                                         received per
                                                                         month

      Wholesale returns      Tailgate/turn-in to stow and     < 3 days   Wholesale
      and redistribution     post to accountable record in               returns and
      orders*                less than 3 days on average                 redistribution
                                                                         lines received

      Receipts from          Tailgate/turn-in to stow and     < 1 day    Receipts from
      maintenance            post to accountable record in               maintenance
                             less than 1 day on average                  processed per
                                                                         month

      Unserviceable returns Tailgate/turn-in to stow and      < 3 days   Unserviceable
                            post to accountable record in                return receipts
                            less than 3 days on average                  processed per
                                                                         month

   *Reported as two measures in the end of month report.




                                            19
        Issues APLs. The CGA used four APLs, listed in Table 2, to measure
contractor performance for issues. The contractor had a standard to meet for each
of these APLs. The CGA averaged each APL over the whole month to rate how
the contractor performed in each specific area of issues. See Table 2 for the type
of activity, standard, APL, and measure for issue APLs.

                                   Table 2. Issue APLs
                                                             APL
     Activity                    Standard                                     Measure
                                                           (average)

    High priority   Receipt of MRO at depot to ship in                 High priority lines
                                                             <1 day
    MROs1           less than 1 day on average                         issued per month

    Routine         Receipt of MRO at depot to ship in                 Routine line items
                                                            < 1 day
    MROs            less than 1 day on average                         issued per month

    DROs2           Receipt of DRO at depot to ship in                 DROs shipped per
                                                           < 21 days
    shipped         less than 21 days on average                       month

                                                                       Lines issued for RCP
    RCP3 sales      Receipt of MRO at depot to ship in
                                                            4.5 days   sales customers per
    MROs            less than 4.5 days on average
                                                                       month

1
  MRO-Material Release Orders
2
  DRO-Distribution Release Orders
3
  RCP-Recycle Control Point

       Inventory APLs. The CGA used three APLs to reflect the contractor’s
performance in the area of inventory and warehousing efficiency. The CGA
measured in percentages and computed each APL for a month to determine how
the contractor performed in this area. See Table 3 for the type of activity,
standard, APL, and measure for inventory APLs.

                               Table 3. Inventory APLs
     Activity                    Standard                    APL              Measure
                                                           (percent)
    Unscheduled     Unscheduled inventories are                        Unscheduled
                                                               95
    inventories     completed within 15 days                           inventories per month

                    Investigations initiated by the
    Causative                                                          Causative research
                    causative research voucher or              95
    research                                                           lines per month
                    inventory adjustment voucher

                    The right quantity, condition, and
    Warehouse                                                          Material release orders
                    item is located to fill the material     > 99.2
    fill rate                                                          per month
                    release orders




                                             20
Actual Performance. The contractor often did not meet all acceptable
performance levels.

        Receipt APLs. The contractor met new procurements and retail returns
for 10 of the first 14 months, or about 71 percent. For the wholesale returns, the
contractor met the APL 100 percent of the time or 14 of 14. For redistribution
orders, the contractor met the standard for 12 out of 14, or about 86 percent. The
contractor met receipts from maintenance for 14 of 14 months, or 100 percent.

        Issue APLs. The contractor met the high priority material release orders
APL and routine material release orders APLs 6 out of 14 times, or about 43
percent. The contractor met distribution release orders APLs for 11 out of 11
months measured, or 100 percent. Finally, the contractor met receipt control
point sales material release orders 6 out of 10 times, or 60 percent.
       Inventory APLs. The contractor met the APL for unscheduled
inventories for only 1 out of 14 months, or about 7 percent of the months
measured. They met the APL for causative research for 5 out of 14 months, or
about 36 percent and the warehouse fill rate APLs for 9 out of 14 times, or about
64 percent of the months measured.

From November 2000 through December 2001, the contractor met APLs for
receipts about 91 percent of the time, for issues 56 percent of the time, and for
inventory about 19 percent of the time. The figure below shows the percentages
the contractor met the receipts, issues, and inventory APLs.

                           CONTRACTOR PERFORMANCE
                           for November 2000 through December 2001


                     100
                      90
                      80
                      70
       Percentages




                      60
                      50
                      40
                      30
                      20
                      10
                       0
                              Issue            Inventory             Receipt

                                                 APLs




                                               21
Additional Reported APLs. The CGA also included four other APLs in the end-
of-month report. The APLs covered items from all three areas including receipts,
issues, and inventory. See Table 4 for the type of activity, standard, APL, and
measure for additional reported APLs.

                      Table 4. Additional Reported APLs
                                                             APL
     Activity                     Standard                                   Measure
                                                           (percent)

Location survey        National stock number matched           99      Locations surveyed
                       the locator record                              per year

Open release orders   All open/averaged                        99      Open
                      MROs1/RDOs2/DROs3 must be                        MROs/RDOs/DROs
                      shipped within 30 days                           per month

Issue material         Material shipped is the correct        99.2     SDRs as percent of
                       item, quantity, and is shipped to               MRO/RDO shipped
                       the right customer

SDR4 research and      SDR research must be                    95      SDR amount received
resolution             completed within 45 days of                     per month
                       receipt and respond to customer
                       in same time frame

1
  MRO-Material Release Orders
2
  RDO-Redistribution Orders
3
  DRO-Disposal Release Orders
4
  SDR-Supply Discrepancy Report


APLs Not Reported. The CGA did not include the APLs listed in the end-of-
month report even though the contract included the APLs. See Table 5 for the
type of activity, standard, and measure for the APLs not included in the end-of-
month report.




                                           22
                           Table 5. APLs Not Reported
                                                             APL
      Activity                     Standard                                   Measure
                                                           (percent)

Unit price more than     Physical inventory matches            95      Items/lines counted at
$1,000                   accountable records by national               time of processing
                         stock number

Unit issue               Physical inventory matches            90      Items/lines counted at
                         accountable records by national               time of processing
                         stock number and quantity

Date of last inventory   Physical inventory matches            93      Items/lines counted at
                         accountable records by national               time of processing
                         stock number and quantity

Section D-other          Physical inventory matches            95      Items/lines counted at
inventory                accountable records by national               time of processing
                         stock number and quantity

Inventory classified     Physical inventory matches           100      Items/lines counted at
and sensitive            accountable records by national               time of processing
                         stock number and quantity

Inventory pilferable     Physical inventory matches           100      Items/lines counted at
                         accountable records by national               time of processing
                         stock number and quantity

Overall inventory        Physical inventory matches            95      Items/lines counted at
record accuracy rate     accountable records by national               time of processing
                         stock number and quantity

Kit assembly             Kits contain all required             99      Kits completed per
                         material and are packaged                     quarter
                         properly

Scheduled                Scheduled inventories                 95      Scheduled inventories
inventories              completed within 30 days                      per month
                         (maximum 45 days)

Investigation of         Investigation of financial           100      All financial liability
financial liability      liability and DD Form 200                     investigations
                         completed within 10 days from                 initiated per quarter
                         notification




                                           23
Appendix C. Summary of Issues and Results
   The results of the issues raised in the congressional request that the contractor at
   DDWG allowed a large backlog to develop and that the contractor did not
   adequately reimburse the Government for their use of DLA employees are
   discussed below.

   Issue 1. A backlog of between 1,800 and 20,000 line items to be processed
   developed at DDWG at contract takeover on September 1, 2000.

   Results. Substantiated. DDWG developed a backlog that was in the range of
   2,000 to 20,000 line items to be processed, or work-in-process. Documentation
   obtained from the Distribution Standard System indicated that the backlog was
   about 2,200 items at contract takeover. Testimonial evidence suggested that the
   number could have been higher due to items not being entered properly into the
   Distribution Standard System. EG&G contended that the backlog was in the
   neighborhood of 20,000 line items. However, EG&G elected not to supply any
   documentation that supports this higher number. The exact number of the
   backlog could not be determined. DLA employees from other depots assisted the
   contractor at DDWG in resolving the backlog problem. Because DLA and
   EG&G had reduced the backlog to a manageable amount by January 1, 2001, we
   did not pursue this point further.

   Issue 2. DLA employees assisted the contractor in eliminating the backlog that
   developed at DDWG without proper reimbursement.

   Results. Partially substantiated. DLA employees assisted the contractor in
   eliminating the backlog at DDWG without full reimbursement. Personnel from
   other depot sites assisted the contractor on a temporary duty basis and assisted in
   eliminating the backlog situation. The contractor reimbursed DLA $138,704.38
   for the use of the employees through a modification to the contract. However,
   incomplete records supplied by the Norfolk, Virginia, depot and computing
   mistakes by DDC resulted in a miscalculation of the reimbursement amount. The
   DDC calculation underestimated the amount owed by the contractor to the
   Government by about $4,138. See the Finding section for additional details.




                                        24
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director for Acquisition Initiatives
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Distribution Center New Cumberland
   Commander, Defense Supply Center Columbus

Non-Defense Federal Organizations
  Office of Management and Budget




                                          25
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

Honorable Max Cleland, U.S. Senate
Honorable Zell Miller, U.S. Senate
Honorable Saxby Chambliss, U.S. House of Representatives




                                          26
Department of the Air Force Comments




                     27
Defense Logistics Agency Comments




                     28
     Final Report
      Reference




     Revised
     Page 3




29
Final Report
 Reference




Revised
page 4




               30
     Final Report
      Reference




     Revised
     page 4




     Revised
     page 15




31
Final Report
 Reference




Revised
pages
6 and 15




Revised
pages
6 and 7




               32
     Final Report
      Reference




     Revised
     page 8




33
34
35
Final Report
 Reference




Revised
page 14


Revised
page 15




               36
37
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Garold E. Stephenson
Joseph P. Doyle
Deborah L. Culp
John G. LaBelle
Jeffrey C. Brown
Shannon L. Strang
